No.
In The
Supreme Court of the United States
PROOF OF SERVICE
Sergei Vinkov,
Petitioner
v.
Mark Smith et al.,
Respondents
I, Kenneth Hastings, at the time of service, was over
18 years of age and not a party to this action. My
address of business is Hastings Legal Services LLC,
41715 Enterprise Cir. N. Suite 208, TEMECULA,
Riverside County, CA 92590, Phone 951-296-2669,
(https://www.hastingsls.com/), which is located in the
county where the service described below took place.
My electronic address is: ken@hastingsls.com.
I do swear or declare that on this date, Octoberl3,
2020, as required by US Supreme Court Rule 29 I
have served the enclosed paper copies and an
electronic version of the documents:
(i) 3 COPIES OF PETITION FOR A WRIT OF
CERTIORARI (booklets);
(ii) BLANKET CONSENT;
(iii) CERTIFICATE OF COMPLIANCE and
(iv) PROOF OF SERVICE (not executed)
on parties' counsels, and on every other person
required to be served, by depositing an envelope
containing the above documents in the United States
1

Postal Service by first-class mail (including express
or priority mail), postage prepaid. The names and
addresses of those served are as follows:
(i) PAUL A. LEVINE, ESQ. SBN. 208693,
Angeloff, Angeloff & LeVine, A Professional Law
Corporation, 910 North State Street, Suite C,
Hemet, CA, 92543, Phone (951) 652-2000,
becky.angeloffighotmail.com, paul2223@hotmail.com
Attorney for parties in Superior Court of California,
County of Riverside, Case No. MCC1900188
SOLAR FORWARD; MARK SMITH; SOLAR
FORWARD ELECTRIC, INC.; MARK HILTON
SMITH. Attorney for respondents: SOLAR
FORWARD ELECTRIC, INC.; MARK HILTON
SMITH.
(ii) MARK HILTON SMITH
2204 Euclid St, Santa Monica, CA 90405
Tel.: (310) 433 3770; E-Mails: 411@solarforward.com;
mark.smith@solarforward.com
RESPONDENT and agent for service of process for
SOLAR FORWARD ELECTRIC, INC. in Cases No:
5:20-cv-01070-CJC-SPx of US District Court for
Central District of California; No. MCC1900188 in
Superior Court of California, County of Riverside.
(iii) MICHAEL MONGAN, SBN. 250374,
California Solicitor General, 455 Golden Gate Ave.
Suite
11000.
San Francisco,
CA 94102,
michael.mongan@doj.ca.gov, Phone: (415) 510-3920
Attorney for SUPERIOR COURT OF CALIFORNIA,
COUNTY OF RIVERSIDE (Attn: Judge A. M.
Bermudez).
2

(iv) SUPERIOR COURT OF CALIFORNIA,
COUNTY OF RIVERSIDE
SUPERIOR COURT OF CALIFORNIA,
COUNTY OF RIVERSIDE
Riverside Hall of Justice,
4100 Main Street,
Riverside, 92501, Phone (951) 777-3162; Fax ( (951)
777-3127, Attn: Judge Angel Manuel Bermudez,
Dep.-S302
app e alste am@riverside. courts. ca. gov
RESPONDENT.
(v) Xavier Becerra, ATTORNEY GENERAL OF
THE STATE OF CALIFORNIA (Attn: 28 USC
§2403(b»
The Honorable Xavier Becerra, Attorney General
State of California, Department of Justice
Address: 1300 I Street, Suite 1740, Sacramento,
California 95814-2954
[Alternate address: PO Box 944255, Sacramento,
CA 94244-2550]
Phone: 916-445-9555, Fax: 916-323-5341
Xavier.Becerra@doj.ca.gov
PUBLIC OFFICER
I declare under penalty of perjury that the foregoing
is true and correct. Executed on October 13, 2020
u Kenneth Hastings,
4L2ifornia Registered
Process Server

3

Sergei Vinkov
40795 Nicole Court
Hemet California, 92544
Phone: 9513815339
email: vinjkov@gmail.com

13th October, 2020
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE Washington, DC 20543
Re: Vinkov v. Smith et al., , No.
Dear Clerk Harris,
I am an unrepresented petitioner in the abovecaptioned case, which by this letter consent to the
filing of any amicus curiae brief in this case in
support of either party or of neither party, provided
that the amicus brief otherwise complies with the
Rules of this Court.
With Regards,
Sergei Vinkov, Petitioner in
Pro Per

cc: Respondents and their counsels

